                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 1-11-03-0011                                                                  Page 1 of 1



         We received information that a for-profit business 1 was using the National Science Foundation
         logo on its website2 .

         Subsequent investigation, which included executing a search warrant at the business, resulted in
         the owner3 of the business pleading guilty to violating 18 U.S.C. § 506(a)(l) and -(2), Falsely
         Making and Forging the Seal of the National Science Foundation. The business owner was
         sentenced to imprisonment for one year and one day, followed by supervised probation for two
         years. In addition, the business owner was required to pay a criminal fine of $25,000.

         Accordingly, this investigation is closed.




         2




NSF OIG Form 2 (11/02)
